BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
, United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amicus Curiae Governor Kristi Noem Supporting
Petitioners in 19-1257 & 19-1258, Arizona Republican
Party, et al. v. Democratic National Committee, et al.,
were sent via Next Day Service to the U.S. Supreme
Court, and Next Day e-mail service to the following
parties listed below, this 7th day of December, 2020:
Marc Erik Elias
Perkins Coie, LLP
700 Thirteenth Street N.W.
Suite 800
Washington, DC 20005-3960
(202) 434-1609
MElias@perkinscoie .com

Counsel for Democratic National Committee, et al.
Michael A. Carvin
Jones Day
51 Louisiana Ave., N.W.
Washington, DC 20001
(202) 879-7643
macarvin@jonesday.com

Counsel for Arizona Republican Party, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Jessica Ring Amunson
Jenner & Block LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001-4412
(202) 639-6023
JAmunson@jenner.com
Counsel for Katie Hobbs, in her official capacity as
Secretary of State of Arizona
Joseph A. Kanefield
Chief Deputy and Chief of Staff
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
Joe .Kanefield@azag.gov
Counsel for State Petitioners
Gene C. Schaerr
Counsel of Record
Erik S. Jaffe
Hannah C. Smith
Kathryn E. Tarbert
Joshua J. Prince
Schaerr I Jaffe LLP
1717 K St. Nw, Ste 900
Washington, DC 20006
(202) 787-1060
gschaerr@schaerr-j affe .com
Counsel for Amicus Curiae

~l parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 7, 2020.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

